No.
INTHE

~uprente Qtourt of tbe Wntteb ~tates
COMCAST CORPORATION AND COMCAST CABLE
COMMUNICATIONS MANAGEMENT, LLC,

Petitioners,
V.
VIAMEDIA, INC.,

Respondent.
CERTIFICATE OF SERVICE
Pursuant to this Court's Rule 29 and order ofApril 15, 2020, I hereby certify that
I am a member in good standing of the bar of this Court and that on this 4th day of
September, 2020, all parties required to be served have been served with one paper copy
and one electronic copy of the Petition for a Writ of Certiorari.
Aaron M. Panner
James M. Webster, III
DerekT. Ho
Matthew R. Huppert

KELLOGG, HANSEN, TODD, FIGEL &
FREDERICK PLLC

1615 M Street, N .W., Suite 400
Washington, D.C. 20036
(202) 326-7900
apanner@kellogghansen.com
jwebster@kellogghansen.com
dho@kellogghansen.com
mhuppert@kellogghansen.com
Counsel for Respondent

